No. 20-928

IN THE

'upreme Court of tbe Ztittiteb &tato
NATIONAL COALITION FOR MEN, JAMES LESMEISTER,
AND ANTHONY DAVIS,
Petitioners,
v.
SELECTIVE SERVICE SYSTEM AND DONALD BENTON,
AS DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit

REPLY BRIEF IN SUPPORT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,982 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 27, 2021.

4Colin Casey ogan
Wilson-Epes Printing Co., Inc.

